4
l

C@QCKLE

2311 Douglas Street .
Omaha, Nebraska 68102-1214 Le ga 1B tiefs

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850 No.

RESPECT WASHINGTON,
Petitioner,

Vv.
GLOBAL NEIGHBORHOOD, et al,
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of October, 2019, send out
from Omaha, NE 4 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
RICHARD M. STEPHENS
Counsel of Record
Stephens & Klinge LLP
601 108th Avenue N.E.
Suite1900
Bellevue, WA 98004
Telephone: (425) 453-6206
E-mail: stephens@sklegal.pro

Counsel for Petitioner Respect Washington

Subscribed and sworn to before me this 8th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ore i C Clie Odi hk. Chae

My Commission Expires Nov 24, 2020

 

 

Notary Public

38772
Rick Eichstaedt

Gonzaga University School of Law
721 N. Cincinnati Street

Spokane, WA 99202

(509) 835-5211
eichstaedt@gonzaga.edu

Dainen N. Penta

Camerina I. Zorrozua

Center for Justice

35 West Main Avenue, Suite 300
Spokane, WA 99201

(509) 835-5211
dpenta@cforjustice.org
cam@cforjustice.org

Representing Global Neighborhood; Refugee Connections of Spokane; Spokane
Chinese Association; Asian Pacific Islander Coalition- Spokane; Spokane Chinese
American Progressives; Spokane Area Chapter of the National Organization of
Women

Nathaniel Odle

Office of the City Attorney
808 W. Spokane Falls Blvd
Spokane, WA 99201

(509) 625-6288
nodle@spokanecity.org

Representing the City of Spokane

Dan Catt

Spokane County Prosecuting Attorney’s Office
West 1115 Broadway Avenue

Spokane, WA 99260

(509) 477-2816

catt@spokanecounty.org

Representing Vicky Dalton, the Spokane County Auditor
